                                                                                                            COMMITTEES
MARK R. WARNER
    VIRGINIA                                                                                          BANKING. HOUSIN G. AND
                                                                                                         URBAN AFFAIRS

                                                                                                     COMMERCE, SCIENCE. AND

                                          tlnitnt ~tat£s ~rnat£                                         TRANSPORTATION

                                                                                                             BUDGET
                                                WASHI NGTON, DC 20510--4606
                                                                                                    RU LES AND ADMINISTRATION

                                                          June 27, 20 II                            J OINT ECO NOMIC COMMITIEE


       Mr. Osvaldo Gratacos
       Inspector General
       Export-Import Bank
       811 Vermont Ave, NW
       Washington, DC 20571

       Dear Mr. Gratacos:

               On behalf of the Subcommittee on Security and International Trade and Finance of the Senate Committee
       on Banking, Housing, and Urban Affairs, 1 invite you to testify before our subcommittee hearing entitled
       "Stakeholder Perspectives on Reauthorization of the Export-Import Bank of the United States." The hearing is
       scheduled for Thursday, June 30, 2011, at 10:00 am. The hearing will take place in the Committee's hearing
       room located in the Dirksen Senate Office Building, Room 538.

               The Export-Import Bank ofthe United States (Exlm Bank) serves as the official export credit agency of
       the US Government, and its current authorization is set to expire on September 30 of this year. Our Committee
       held a hearing earlier this year on the operations of Ex 1m Bank and the Administration's request for a
       reauthorization prior to the expiration of the current one. As our Committee conducts oversight of the Bank's
       operations and considers the Administration ' s request, we wou ld appreciate your discussing any or all of the
       following:
               • the current goals and operations of the Exlm Bank, including its efficiency, effectiveness, and
                    transparency;
               • areas where the ExIm Bank can improve its operations to meet its stated policy goals as well as the
                    needs of US exporters;
               • how the ExIm Bank's goals, products, and policies relate to foreign export credit agencies including
                    those governed by the OECD versus non-OECD; and
               • how legislative proposals, such as the Administration's reauthorization proposal, would affect the
                    operations of the ExIm Bank and improve the export competitiveness of the United States.

               For purposes of the Committee Record and printing, your written statement must be submitted in
       electronic form bye-mail to Dawn Ratliff,ChiefClerk, at dawn ratliff@banking.senate.gov and Nathan
       Steinwald, Subcommittee Staff Director, at Nathan Steinwald@Wamer.Senate.Gov, or on a CDRW in
       WordPerfect (or other comparable program) format and typed double-spaced. Also, two ORlGINAL copies of
       the statement must be included for the printers, along with 73 copies for the use of Committee members and staff.

              Your statement should be sent no later than 24 hours prior to the hearing. Your oral statement should be
       approximately 5 minutes in duration. Your full statement will be made part of the hearing record. If you have
       any questions regarding the hearing, please contact Nathan Steinwald at (202) 224-4025.

                                               Sincerely,




                                               Subcommittee Chainnan



                                                     http ://wamer.sena le.gov
                                                     PA IN 1m ON RECYCL,O PAPER
Statement of Osvaldo Luis Gratacós                                                        June 30, 2011
Inspector General



                                         Statement of
                              Honorable Osvaldo Luis Gratacós
                                      Inspector General
                            Export-Import Bank of the United States

                                            before the

                             United States Senate
                 Committee on Banking, Housing, & Urban Affairs
             Subcommittee on Security & International Trade & Finance

                                     June 30, 2011 at 10:00 am


         Good afternoon, Chairman Warner, Ranking Member Johanns, and distinguished

members of this honorable Subcommittee.


         Thank you for the invitation and opportunity to testify before you about the

activities of the Office of Inspector General (OIG) and the programs and operations of

the Export-Import Bank (Ex-Im Bank) as it relates to Export-Import Bank

Reauthorization. Before I continue, I would like to thank the Almighty for this

opportunity, my family, and the members of the Ex-Im OIG staff for their hard work.


I.       Ex-Im Bank


         The Ex-Im Bank is the official export credit agency (ECA) of the United States.

Ex-Im Bank supports the financing of U.S. goods and services in international markets,

turning export opportunities into actual sales that help U.S. companies of all sizes to

create and maintain jobs in the United States. Ex-Im Bank has programs to address

short, medium, and long-term needs of exporters; assuming the credit and country risks


                                            1 of 10                         Office of Inspector General
                                                                     Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                                 June 30, 2011
Inspector General


that the private sector is unable or unwilling to accept. Ex-Im Bank also helps U.S.

exporters remain competitive by countering the export financing provided by foreign

governments on behalf of foreign companies. At the same time, Ex-Im Bank must

safeguard taxpayer resources by determining that there is a reasonable likelihood of

repayment with respect to each of its transactions.


            Ex-Im Bank is experiencing unprecedented growth - achieving three straight

years of record authorization levels. Ex-Im Bank is projecting another record year in

FY 2011. For the first six months of FY 2011, Ex-Im Bank reported $13.4 billion in new

authorizations. Ex-Im Bank has achieved this increase with basically the same staffing

level for the past decade. This not only demonstrates the commitment, knowledge, and

expertise of the staff at Ex-Im Bank, but also the need in the market for government

supported export financing in this very competitive and difficult credit market.


II.         Ex-Im OIG


            Ex-Im OIG was statutorily created in 20021 but the Inspector General did not

officially take office until August 2007. Since reaching current staffing levels, the OIG

has achieved noticeable success in performing its statutory duties. Specifically, the OIG

has issued twenty (20) audit and special reports containing eighty-five (85) findings,

recommendations, and suggestions for improving Ex-Im Bank programs and operations.

Our investigative efforts have resulted in a number of law enforcement actions,

including: sixty-four (64) indictments and arrests; nine (9) convictions, fourteen (14)



1
      Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 22 (June 14, 2002).

                                                         2 of 10                                     Office of Inspector General
                                                                                              Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                          June 30, 2011
Inspector General


guilty pleas; and over one hundred and ninety-one (191) management referrals for

enhanced due diligence actions. Since 2009, the total overall OIG financial impact is

approximately $250 million. Currently, the OIG is investigating thirty-seven (37) open

matters representing approximately $348 million in claims paid by Ex-Im Bank (or

around 15.3% of all Ex-Im Bank claims paid as of the end of FY 2010). All of this has

been accomplished with a very modest annual budget of $2.5 million and a staff of

eleven professionals.


III.     Competitiveness: Operational Areas


           In order to better meet export credit needs of the American exporters and

improve the customer service experience of its participants while balancing its

responsibilities, it is our opinion that Ex-Im Bank needs to address some operational

weaknesses and challenges it is facing. We believe that addressing these operational

weaknesses and challenges would provide Ex-Im Bank with a more efficient capability

to create and maintain jobs in the United States. Besides increasing staffing levels to

reflect the growth in authorizations, some of the challenges Ex-Im Bank needs to

address are:


          Inefficient and Ineffective Information Technology (IT) Platform. Ex-Im Bank

              uses an ineffective, inefficient, and fragmented IT platform and infrastructure

              composed of several systems and databases. These systems and databases

              do not effectively and accurately interface with each other - compromising




                                           3 of 10                            Office of Inspector General
                                                                       Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                             June 30, 2011
Inspector General


              data integrity, duplicative information, and creating unreliable files. Further,

              these systems makes data mining burdensome and time consuming.

              o Ex-Im Bank lacks an end-to-end IT system that allows for seamless

                  management of applications/files and flow of information within the Bank

                  and would allow different components within the Bank to work on the

                  same files at the same time from the same platform.

              o Ex-Im Bank lacks a centralized and comprehensive participant database

                  that would allow the Bank to capture and track all the participants (lenders,

                  buyers, exporters, suppliers, brokers, agents, and others) involved at

                  different transactions at any given moment in time. This weakness

                  prevents Ex-Im Bank and our office from conducting effective forensic

                  analysis to identify possible patterns in transactions.

              o Because the IT platforms do not fully meet business and operational

                  needs, Ex-Im Bank divisions and components have created subsequent

                  data sub-systems to address the specific needs of that office or division.

                  Some of these sub-systems require manual input of data and do not

                  interface with Ex-Im Bank’s main IT infrastructure creating additional data

                  repositories.

              o The above described IT system fragmentation creates a number of

                  operational consequences for the Ex-Im Bank:

                           delays in approval of transactions

                           data integrity issues (due to manual input or updates of data)

                           multiple data storage locations


                                              4 of 10                            Office of Inspector General
                                                                          Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                         June 30, 2011
Inspector General


                           burdensome and somewhat ineffective management of applications

                            and assets

          Develop Performance Standards and Metrics for Programs and Products.

              Ex-Im Bank has not developed annual performance plans or product

              performance metrics in order to properly quantify the effect and success of its

              products. Ex-Im Bank should develop these metrics in short and medium

              term products in order to determine whether

              o the product is achieving the intended results;

              o the product is reaching the intended audience;

              o the marketing strategy is effective;

              o the product is similar or more competitive than programs offered by other

                  ECAs;

              o the product should be altered or eliminated;

              o acceptable levels of defaults and claims have been established;

              o levels of defaults and claims should be improved; and

              o changes in original implementation strategies are needed.

          Continue Efforts to Expand Small Business Participation. Ex-Im Bank charter

              imposes a twenty (20) percent small business participation requirement of all

              of the authorizations every year. Ex-Im Bank has exceeded this mandate in

              the last two years and it is expecting to surpass it again in FY 2011. Ex-Im

              Bank has been able to achieve its mandate by

              o conducting Export Forums throughout the United States;




                                            5 of 10                          Office of Inspector General
                                                                      Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                          June 30, 2011
Inspector General


              o developing partnerships with different lenders, local governments and

                  industries;

              o creating products specifically for small businesses (Global Access,

                  Express Insurance and Reinsurance products); and

              o continuing collaboration and cooperation with other agencies, including

                  the Small Business Administration and Department of Commerce, in order

                  to reach out to small businesses. Enhancing export opportunities requires

                  the participation, training, and collaboration of other federal agencies. The

                  National Export Initiative addresses and encourages collaboration

                  between agencies.


          Continue Efforts to Expand Renewable Energy Products and to Create Clean

              Energy Export Opportunities. Ex-Im Bank charter contains a Renewable

              Energy mandate of ten (10) percent of all the authorizations every year.

              Ex-Im Bank has not met this mandate yet, mainly due to the fact that the

              renewable energy exports have not reached significant numbers (compared

              with the size of Ex-Im Bank’s portfolio). Nonetheless, Ex-Im Bank has taken

              a proactive approach in developing renewable energy specific products such

              as Solar Express, as well as reaching out to local companies such as wind

              and solar manufacturers.

          Improve Operational Efficiency by Reducing the Time it takes to Approve

              Short and Medium Term Transactions. Some Ex-Im Bank participants have

              complained in the past about the approval times and process. Reducing the



                                           6 of 10                            Office of Inspector General
                                                                       Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                         June 30, 2011
Inspector General


              time it takes to approve transactions would allow American exporters to

              develop better relationships with clients and customers, would encourage

              borrowers and sellers to use Ex-Im Bank, and would improve the services

              Ex-Im Bank provides to its users.

          Absence of systematic approach to measure customer satisfaction. Ex-Im

              Bank does not conduct customer satisfaction surveys on a regular basis.

              Customer surveys provide valuable insight into customer priorities,

              perceptions of Ex-Im Bank performance, areas for improvement, and other

              ECA best practices. On April 27, 2011, President Obama issued Executive

              Order 12862 instructing Federal agencies (including independent agencies) to

              develop a customer service plan to streamline service delivery and improve

              customer experience. To this end, we recommend that Ex-Im utilize

              customer surveys to validate the priorities of its customers and the Bank’s

              performance.


IV.      Other Observations from OIG Cases and Reports


         Ex-Im Bank has the important responsibility of providing export financing in a

very difficult credit environment while also protecting the taxpayers, the integrity of its

programs, and the full faith and credit of the United States. In conducting our audits,

evaluations, inspections, and investigations, the OIG has conveyed to Ex-Im Bank the

following observations developed from transactions and programs under the OIG

purview.




                                          7 of 10                            Office of Inspector General
                                                                      Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                              June 30, 2011
Inspector General


          Enhance Due Diligence and Credit Underwriting Practices (specifically for

              Short and Medium Term programs) and Improve Training Efforts to Address

              the Surge in Applications under a Decentralized Application Approval

              Process. Currently, Ex-Im Bank uses a decentralized underwriting process.

              Given the lessons learned from the Medium Term program, the surge in the

              number of transactions, and insufficient credit information and history from

              borrowers in some regions, it is vital that Ex-Im Bank enhance due diligence

              practices in order to better identify fraudulent transactions. With Individual

              Delegated Authority (IDA) as high as $10 million, Ex-Im Bank needs to

              develop effective policies, procedures, and compliance practices to assess

              effectiveness of the delegations. Some of these policies should address the

              following:

                       o Uniform credit and underwriting standards to be used by all Ex-Im

                            Bank credit officers.

                       o At a minimum, Ex-Im Bank should make more frequent use of

                            security interest and sporadic inspections in order to better mitigate

                            risks in programs and regions where defaults and fraud experience

                            has been high.

                       o Use of financial statements in programs where defaults and fraud

                            experience is high. Further, Ex-Im Bank should require

                            independently audited financial statements in regions where Ex-Im

                            Bank has limited or unfavorable lending experience.




                                              8 of 10                             Office of Inspector General
                                                                           Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                          June 30, 2011
Inspector General


          Encourage Lender Partners and Participants to Conduct, at a Minimum,

              Industry Standard Due Diligence on Government Guarantees and Insurance

              Transactions. One of the patterns our office has observed in conducting our

              investigations is the lack of due diligence efforts conducted by lenders,

              specifically the ones who have a history of defaulted transactions. Even

              though there is an expectation that such efforts have been taken, Ex-Im Bank

              does not require participating lenders to conduct due diligence on their

              transactions. The OIG has anecdotal evidence of loan officers in lending

              institutions expressing their position that the lender would not devote

              resources on due diligence efforts when there is a government guarantee and

              such efforts are not required by Ex-Im Bank. Although the OIG is not in a

              position to state that this is a behavior demonstrated by all lenders, we can

              certainly state that this “moral hazard” issue has been prevalent in fraud

              cases involving multiple transactions. Effective implementation of “Know

              Your Customer” practices by lenders could help in minimizing or preventing

              the number of fraudulent cases Ex-Im Bank has experienced.

          Improve Corporate Governance, Business Processes and Internal Control

              Policies and Practices. One of the consistent observations arising out of

              audits, evaluations, and investigations conducted by the OIG are the

              weaknesses in governance and internal controls, as they relate to business

              operations. Internal policies providing clear guidance to staff and establishing

              clear roles and authorities are not prevalent at Ex-Im Bank. These areas




                                           9 of 10                            Office of Inspector General
                                                                       Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                        June 30, 2011
Inspector General


              need to be addressed as part of creating a better corporate governance

              culture.


V.       Conclusion


         Ex-Im Bank has an important role in creating and maintaining jobs by facilitating

exports through export finance products provided to American exporters. Three years

of record export authorization levels only support that role. While Ex-Im Bank continues

to provide export credit and financing as part of its export credit agency functions, it

should work to improve its operational effectiveness and efficiencies in its quest of

achieving the National Export Initiative’s goal of doubling exports in the next four years.


         I have highlighted some of those areas based on observations and relevant work

performed by the OIG in order to illustrate the importance of proper management,

oversight of strategies, and to incorporate lessons learned from Ex-Im Bank’s prior

activities. The OIG will continue to enhance its independent oversight role as well as

strengthen its efforts in preventing and detecting fraud, waste, and abuse.


         Chairman Warner, Ranking Member Johanns, and members of this honorable

Subcommittee, thank you once again for the opportunity to testify before you today. I

would be pleased to respond to any questions you may have. Thank you!




                                        10 of 10                            Office of Inspector General
                                                                     Export-Import Bank of the United States
